                OFFICE OF INSPECTOR GENERAL

          LIMITED SCOPE AUDIT REPORT
                                    ON SELECTED
                                   NEA GRANTS TO

   Association of Performing Arts Presenters, Inc.
                                     Washington, D.C.

                            REPORT NO. LS-12-02
                                      August 03, 2012
                                 REPORT RELEASE RESTRICTION

In accordance with Public Law 110-409, The Inspector General Act of 2008, this report shall be posted on
the National Endowment for the Arts (NEA) website not later than three (3) days after it is made publicly
available with the approval of the NEA Office of Inspector General. Information contained in this report
may be confidential. The restrictions of 18 USC 1905 should be considered before this information is
released to the public. Furthermore, information contained in this report should not be used for purposes
other than those intended without prior consultation with the NEA Office of Inspector General regarding its
applicability.
                               INTRODUCTION
BACKGROUND
The Association of Performing Arts Presenters (APAP) is a non-profit organization,
based in Washington, DC. APAP is the national service and advocacy organization that
is dedicated to developing and supporting the performing arts presenting field and the
professionals who work within it. APAP works to effect change through advocacy,
professional development, resource sharing, and civic engagement.

OBJECTIVE, SCOPE, AND METHODOLOGY
Limited scope audits involve a limited scope review of financial and non-financial
information of grant recipients to ensure validity and accuracy of reported information,
and compliance with Federal requirements. The objective of this limited scope audit by
the National Endowment for the Arts (NEA) Office of Inspector of General (OIG) was to
determine whether the:

   •   grantee fulfilled the financial and compliance requirements as set forth in the
       grant awards;
   •   total project costs claimed under the grants were reasonable, allocable, and
       allowable; and
   •   required match was met on NEA grant funds.

Our audit was conducted in accordance with the Government Auditing Standards (2011),
issued by the Comptroller General of the United States. Accordingly, we included such
tests of records and other auditing procedures that were considered necessary under the
circumstances. The "Standards" require that we obtain sufficient, competent, and
relevant evidence to afford a reasonable basis for our findings and conclusions. We
evaluated the recipient's compliance with the U.S. Office of Management and Budget
(OMB) and NEA guidance.

During the period under review, APAP had nine NEA grants active with awards totaling
$474,400. We reviewed seven of the nine grants in which NEA funds had been drawn
down and costs had been reported. We also reviewed one of the nine grants in which
NEA funds had not been drawn down and costs had not been reported.

PRIOR AUDIT COVERAGE
NEA OIG conducted an evaluation and issued a Financial Management System and
Compliance Evaluation report (SCE-12-03) on Federal grants awarded to APAP. During
the evaluation, we reviewed two of the nine grants that were open and/or closed within
the last three years. We concluded that APAP did not comply with the financial
management system and recordkeeping requirements established by OMB and NEA for
federal awards.



                                            1
Due to the significant issues that were found during the evaluation, we determined that a
limited scope audit should be performed on the remaining grants under the scope period.
For its ARRA Grant No. 09-5488-7240, APAP did not separately identify Recovery Act
expenditures in its financial management system and did not maintain personnel activity
reports. For its NEA Grant No. 10-5400-7165, APAP did not separately identify
expenditures by specific grant award in its financial management system. APAP also
included costs incurred outside of the grant period on its final Federal Financial Report
(FFR). Furthermore, APAP did not have the required Section 504 self-evaluation on file.

As of our exit conference on June 28, 2012, the most recent independent auditor’s report
on APAP is as of June 30, 2011. The audit was conducted by SB & Company, LLC, an
independent CPA firm, which issued an unqualified (clean) opinion. APAP was not
subject to the audit requirements of OMB Circular A-133.

                              RESULTS OF AUDIT
Our limited scope audit concluded that APAP did not comply with the financial
management system and recordkeeping requirements established by OMB and NEA for
the eight NEA awards reviewed. APAP did not identify costs by specific grants in its
accounting system. APAP reported costs based on budgeted amounts and not actual
amounts. In addition, APAP did not document the methodology for allocating costs to
NEA awards and did not maintain personnel activity reports. Details are presented in the
narrative below.

                       FINANCIAL MANAGEMENT
DOCUMENTATION OF FEDERAL AWARDS
APAP did not separately identify costs by specific award in its financial management
system for any of the NEA awards reviewed. APAP's financial management system
identifies costs by projects. When reviewing the general ledger detail provided by
APAP, we found multiple NEA awards, as well as costs for other APAP programs, under
one project.

NEA's General Terms incorporates OMB's Circular A-110 (Uniform Administrative
Requirements for Grants and Agreements with Institutions of Higher Education,
Hospitals, and Other Non-Profit Organizations), which addresses the requirement to have
an adequate financial management system. The General Terms states:

       There can be no overlapping project costs between Federal awards. Therefore,
       separate accounting records must be maintained for each award. OMB Circular A-
       110 (2 CFR 215), Section 2, and the "Common Rule," Section 1157.20, as applicable,
       establishes standards for financial management systems of recipients (i.e.,
       accounting systems, internal controls, allowable costs, cash management, etc.). The
       financial management systems of recipient organizations and their subrecipients
       must meet these standards.



                                               2
APAP did not have policies and procedures in place to ensure that accounting records are
maintained separately for each award. Without policies and procedures in place that
would allow expenditures of grant awards to be segregated, APAP is not able to
adequately identify specific grant award expenditures.

As a result of not maintaining separate accounting records for each award, we were
unable to determine costs by NEA award and could not perform costs transaction testing.
Therefore, we questioned all costs claimed to NEA awards, in the amount of $709,585,
which could result in a potential refund, in the amount of $354,000, to NEA. Details are
presented below:

    NEA Grant No.            Award Amount                Amount Claimed           Potential Refund
     08-3200-7151                   $ 20,000                     $ 40,000                  $ 20,000
     08-5400-7159                     90,000                       185,600                   90,000
     09-5400-7117                     75,000                       166,100                   75,000
    09-5400-7256 1                    29,400                        53,400                   29,400
    09-5400-7258 2                    20,000                        20,000                   20,000
     10-3200-7286                     45,000                        91,911                   45,000
     10-5400-7165                     75,000                       152,574                   75,000
    11-5400-7144 3                    70,000                             0                        0
       TOTAL                        $424,400                      $709,585                 $354,000

APAP officials subsequently provided NEA OIG with a newly developed chart of
accounts that separately identifies NEA awards. We reviewed and submitted the
documentation to NEA Management for a final decision. Based on the documentation
provided, management accepted the allowable costs charged to the awards. Therefore,
we are not questioning costs charged to the awards and no refund is due.

We recommend that APAP provide documentation to demonstrate that separate
accounting records, in accordance with its new chart of accounts, are maintained in is
financial management system. We also recommend that APAP develop and implement
written policies and procedures to separately identify costs by specific award in its
financial management system.

REPORTED EXPENDITURES
APAP reported costs based on budgeted amounts and not actual costs. APAP did not
report actual costs for Grant Nos. 08-3200-7151, 08-5400-7159, 09-5400-7117, 09-5400-
7256, and 09-5400-7258.




1
  Only $24,000 had a 1:1 matching requirement.
2
  Did not have a matching requirement.
3
  Extended to 12/31/12 and costs had not been claimed at the time of the audit.


                                                     3
APAP was unable to provide supporting documentation used to determine total outlays
reported on its final financial reports. The expenditure reports extracted from APAP's
financial system during our review were different from the total outlays reported for each
award. To ensure accurate reporting of grant costs, an organization is required to
maintain worksheets and/or separate accounts in the ledger or subsidiary ledger for each
grant.

NEA's General Terms states:

       The FFR is used to verify that the required match has been met. Ensure that the
       amounts reported on your FFR are based on actual allowable project expenditures
       and can be easily reconciled to your accounting records. Unallowable costs, such as
       fundraising, receptions, etc. cannot be included in these amounts.

We recommend that APAP develop and implement written policies and procedures to
ensure that actual expenditures are reported on its FFRs.

ALLOCATION METHOD
APAP could not provide documentation for the methodology used to allocate costs to the
NEA Grant No. 09-5400-7256. From review of the general ledger detail, we noted that
indirect costs were allocated to the grant at a rate of 25%. According to APAP officials,
it was estimated that approximately 25% of conference-related telecommunications
overhead was applicable to this NEA award.

According to OMB Circular A-110, Subpart C, 21.b.6, recipients' financial management
systems shall provide for:

       Written procedures for determining the reasonableness, allocability, and allowability
       of costs in accordance with the provisions of the applicable Federal cost principles
       and the terms and conditions of the award.

The allocated costs are included in the accepted questioned costs under the
Documentation of Federal Awards section. Therefore, we are not questioning the
allocated costs charged to the award and no refund is due.

We recommend that APAP develop and implement written policies and procedures to
ensure the methodology for the allocation of costs charged to NEA awards is
documented.

PERSONNEL ACTIVITY REPORT
APAP did not maintain personnel activity (time and effort) reports for the salary costs
charged to NEA Grant Nos. 08-5400-7159 and 09-5400-7117. Personnel activity reports
were required for employees whose salaries and fringe benefits were charged, in whole or
in part, to these NEA awards.




                                                4
NEA's General Terms states:

        The NEA requires formal personnel activity reports (also known as "time and
        effort" reports) for any employee whose salary is charged, in whole or in part, to
        either the award or the matching funds if:

            •   your award is $50,000 or greater, or
            •   you are on an alternative method of funding (as noted in your award
                document or the Inspector General's audit follow-up report).

APAP did not have policies and procedures in place to ensure that personnel activity
reports were maintained for salary costs charged to NEA awards, if required. Without
personnel activity reports, employees’ time and effort charged to the award cannot be
identified.

As a result of not maintaining personnel activity reports, we questioned salaries and
fringe benefit costs charged to the awards. However, the salaries and fringe benefit costs
are included in the accepted questioned costs under the Documentation of Federal
Awards section. Therefore, we are not questioning personnel costs charged to the awards
reviewed and no refund is due.

Subsequent to our review, APAP submitted a copy of its revised timesheet which
includes the allocation of time and effort as required by NEA's General Terms.

We recommend that APAP develop and implement written policies and procedures to
ensure that individual personnel activity reports are maintained, if required, by NEA's
General Terms.

                                EXIT CONFERENCE
An exit conference was held with APAP officials on June 28, 2012. APAP officials
concurred with our findings and recommendations.

                              RECOMMENDATIONS
We recommend that APAP:

   1. Provide documentation to demonstrate that separate accounting records, in
      accordance with its new chart of accounts, are maintained in its financial
      management system.

   2. Develop and implement written policies and procedures to separately identify
      costs by specific award in its financial management system.

   3.    Develop and implement written policies and procedures to ensure that actual
        expenditures are reported on its FFRs.



                                                  5
4. Develop and implement written policies and procedures to ensure the
   methodology for the allocation of costs charged to NEA awards is documented.

5. Develop and implement written policies and procedures to ensure that individual
   personnel activity reports are maintained, if required, by NEA's General Terms.




                                       6
